HHS/OIG-Audit--"Review of Medicaid Enhanced Payments to Public Providers and the Use of Intergovernmental Transfers by the Alabama State Medicaid Agency, (A-04-00-02165)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Enhanced Payments to Public Providers and the Use of Intergovernmental Transfers by the Alabama
State Medicaid Agency," (A-04-00-02165)
March 8, 2001
Complete
Text of Report is available in PDF format (1.85 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out a method used by Alabama to obtain additional Federal Medicaid funds by circumventing the
Medicaid requirement that expenditures be a shared Federal/State responsibility. For fiscal years 1999 and 2000 Alabama
made enhanced payments to nursing facilities totaling about $83.5 million. The nursing facilities retained about $3 million
and $80.5 million was returned to the State. The transaction generated about $58.5 million in Federal Financial Participation.
In effect, the State has developed a mechanism to obtain additional Federal Medicaid funds without committing its share
of required matching funds. As a result, we estimate the Federal share of nursing home expenditures in Alabama increased
from the approved Federal matching rate of about 70 percent to about 78 percent, thus effectively reducing the State share
by 8 percent. Among other things, we recommended that the Health Care Financing Administration (HCFA) take action to place
a control on the overall financing mechanisms being used by the State to circumvent the Medicaid program requirement that
expenditures be a shared Federal/State responsibility. The HCFA concurred and to address the problem has issued revised
regulations. We estimate the Federal Government will save about $44.2 million in Alabama through October 1, 2005 due to
the revised regulations.